                                              4 November 1997


        Memorandum
    1

                   To:       File
    I                        Case No. I97090052                                      1



              Subject:       Closeout Memo

        We received a complaint that in January 1996 a University of e f e s s o r had
        submitted a proposal
                    -    -
                              for NSF funding which cited the complainant s octbra research as its
        preliminary data. In addition, the complainant said that in September ',k996 the professor
1
        had applied for fellowship funding for her from NSF, even though she did hot qualify for this




1       who she believes are relevant to her complaint.

        A review of the professor's proposals to NSF indicated that he had not applied for NSF
        funding at the times the complainant had suggested, and that the only $oposals submitted
        by the professor to NSF                                       were in ~ a1995  j and January
                                                                                  ,I
        1997. Neither proposal was funded, and neither proposal mentioned the complainant or her
                         ition, neither proposal sought fellowship funding for the! complainant. Dr.
                                                                                 i
                        reviewed the complaint and the proposal files, and agreed that the
                        aims are not supported by the proposal files.             I
                                                                                                          I

        Based on the complainant's statement that she was unsure whether Dr                        even   I
        received a Ph.D.,                                     niversity of                     (via the   1
        U.S. Embassy in                                             credentials!         The University
        Registrar

        Based on the above developments, this ctse is closed.
